        AUDIT OF THE OFFICE OF 

COMMUNITY ORIENTED POLICING SERVICES

   HIRING RECOVERY PROGRAM GRANT

           AWARDED TO THE

     MANTECA POLICE DEPARTMENT

       MANTECA, CALIFORNIA


      U.S. Department of Justice
    Office of the Inspector General
             Audit Division

     Audit Report GR-90-13-005
            August 2013
                   AUDIT OF THE OFFICE OF 

           COMMUNITY ORIENTED POLICING SERVICES

              HIRING RECOVERY PROGRAM GRANT

                      AWARDED TO THE

                MANTECA POLICE DEPARTMENT

                    MANTECA, CALIFORNIA


                            EXECUTIVE SUMMARY


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RK-WX-0152, awarded to the Manteca Police Department (Manteca),
Manteca, California. 1 This grant provided $1,479,340 in funding to Manteca
in order to avoid the layoff of four sworn officers.

       The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) application statistics, (2) internal control environment,
(3) expenditures, (4) drawdowns, (5) budget management and control,
(6) reporting, (7) additional award requirements, (8) program performance
and accomplishments, (9) retention plan, and (10) post grant end date
activity.

      We determined that Manteca generally complied with grant
requirements in the areas we tested. However, we found that Manteca
overcharged the grant $75,138 in salary and fringe benefit costs and we
question those costs. Further, the remaining unreimbursed grant funds of
$74,000 should be de-obligated by COPS and put to better use. We also
recommend that Manteca enhance its procedures for ensuring that all costs
charged to grants are allowable and allocable.

      These items are discussed in further detail in the Finding and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I and our Schedule of Dollar Related
Findings appears in Appendix II.




      1
        The grant start date was July 1, 2009, and the end date, with all known time
extensions, was December 31, 2012.
      We discussed the results of our audit with Manteca officials and have
included their comments in the report, as applicable. In addition, we
requested written responses to the draft audit report from Manteca and
COPS and appended those comments to this report in Appendices II and IV,
respectively. Our analysis of both responses, as well as a summary of action
necessary to close the recommendations can be found in Appendix V of this
report.




                                    -ii­
                               TABLE OF CONTENTS


INTRODUCTION .................................................................................1

     The Office of Community Oriented Policing Services ...........................1

     American Recovery and Reinvestment Act.........................................2

     COPS Hiring Recovery Program........................................................2

     Background...................................................................................2

     OIG Audit Approach .......................................................................3


FINDING AND RECOMMENDATIONS...................................................5

     Application Statistics ......................................................................5

     Internal Control Environment ..........................................................6

     Expenditures .................................................................................7

     Drawdowns ...................................................................................8

     Budget Management and Control. ....................................................8

     Reporting......................................................................................9

     Additional Award Requirements .................................................... 11

     Program Performance and Accomplishments .................................. .12

     Retention Plan ............................................................................ .13

     Post Grant End Date Activity ........................................................ .13

     Conclusion .................................................................................. 13

     Recommendations ....................................................................... 13


APPENDICES:

I    - OBJECTIVES, SCOPE, AND METHODOLOGY...............................14


II   - SCHEDULE OF DOLLAR-RELATED FINDINGS ............................16


III - THE CITY OF MANTECA POLICE DPARTMENT

        RESPONSE TO THE DRAFT AUDIT REPORT............................17


IV - OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

      RESPONSE TO THE DRAFT AUDIT REPORT..............................19


V    - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

        OF ACTIONS NECESSARY TO CLOSE THE REPORT ..................22

                   AUDIT OF THE OFFICE OF 

           COMMUNITY ORIENTED POLICING SERVICES

              HIRING RECOVERY PROGRAM GRANT

                      AWARDED TO THE

                MANTECA POLICE DEPARTMENT

                    MANTECA, CALIFORNIA


                                 INTRODUCTION


       The Department of Justice (DOJ) Office of the Inspector General (OIG),
Audit Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant,
2009-RK-WX-0152, awarded to the Manteca Police Department (Manteca),
Manteca, California. This grant, in the amount of $1,479,340, was utilized
to retain four sworn officers that were scheduled to be laid off.

                                 EXHIBIT 1

                          CHRP GRANT AWARDED TO

                      THE MANTECA POLICE DEPARTMENT

                                    Award            Award           Award
              Grant Award         Start Date       End Date 2       Amount
            2009-RK-WX-0152        07/1/09          12/31/12      $ 1,479,340
                                                          Total   $ 1,479,340
           Source: COPS

       The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) application statistics, (2) internal control environment,
(3) expenditures, (4) drawdowns, (5) budget management and control,
(6) reporting, (7) additional award requirements, (8) program performance
and accomplishments, (9) retention plan, and (10) post grant end date
activity.

The Office of Community Oriented Policing Services

       COPS, within the DOJ, assists law enforcement agencies in enhancing
public safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. COPS provides funding to state,
local, and tribal law enforcement agencies and other public and private

      2
          The Award End Date includes all time extensions that were approved by COPS.
entities to hire and train community policing professionals, acquire and
deploy cutting-edge crime-fighting technologies, and develop and test
innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to COPS for
grants to state, local, and tribal governments to hire or retain police officers.

COPS Hiring Recovery Program

       To distribute the Recovery Act money, COPS established CHRP, a grant
program for the hiring, rehiring, and retention of career law enforcement
officers. COPS created CHRP to provide 100 percent of the funding for
approved entry-level salaries and benefits (for 3 years) for newly-hired, full-
time sworn officer positions, for rehired officers who had been laid off, or for
officers who had been scheduled to be laid off on a future date. COPS
received 7,272 applications requesting funding for approximately 39,000
officer positions. On July 28, 2009, COPS announced its selection of 1,046
law enforcement agencies as recipients of the $1 billion in CHRP funding to
hire, rehire, and retain 4,699 officers. The grants were competitively
awarded based on data submitted by each applicant related to fiscal and
economic conditions, rates of crime, and community policing activities.

Background

      The City of Manteca is located in San Joaquin County, California,
approximately 77 miles east of San Francisco with a population of
approximately 67,000 in 2010. Manteca’s approved budget in fiscal year
(FY) 2009 was approximately $16 million and at the time of the grant
application, it had a budgeted force of 64 sworn officers.


                                      -2­
OIG Audit Approach

      We tested Manteca’s compliance with what we considered to be the
most important conditions of the CHRP grant. Unless otherwise stated in our
report, we applied the 2009 CHRP Grant Owner’s Manual (Grant Owner’s
Manual) as our primary criteria during our audit. The Grant Owner’s Manual
serves as a reference to assist grantees with the administrative and financial
matters associated with the grant. The manual was developed by COPS to
ensure that all CHRP grantees understand and meet the requirements of the
grant. We also considered applicable Office of Management and Budget
(OMB) and Code of Federal Regulations (C.F.R.) criteria in performing our
audit. We tested Manteca’s:

      •	 Application statistics – to assess the accuracy of key statistical
         data that the grantee submitted with its CHRP application.

      •	 Internal Control Environment – to determine whether the
         financial and accounting system and related internal controls were
         adequate to safeguard grant funds and ensure compliance with the
         terms and conditions of the grant.

      •	 Expenditures – to determine whether costs charged to the grant
         including payroll and fringe benefits, were accurate, adequately
         supported, allowable, reasonable, and allocable.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Manteca managed grant receipts in accordance
         with federal requirements.

      •	 Budget Management and Control – to determine whether there
         were deviations between the amounts budgeted and the actual
         costs for each category.

      •	 Reporting – to determine if the required financial, programmatic,
         and Recovery Act Reports were submitted on time and accurately
         reflected grant activity.

      •	 Additional Award Requirements – to determine whether
         Manteca complied with award guidelines, special conditions, and
         solicitation criteria.

      •	 Program Performance and Accomplishments – to determine
         whether Manteca achieved grant objectives, and to assess
         performance and grant accomplishments.


                                    -3­
     •	 Retention Plan – to determine whether Manteca had a retention
        plan and retained CHRP grant funded officers at the conclusion of
        the grant.

     •	 Post Grant End Date Activity – to determine whether Manteca
        had filed final reports.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Manteca officials and have included their comments in the report,
as applicable. Our report contains three recommendations to COPS. The
audit objective, scope, and methodology are discussed in Appendix I, and
our Schedule of Dollar-Related Findings appears in Appendix II.




                                    -4­
                  FINDING AND RECOMMENDATIONS

          We determined that Manteca generally complied with
          grant requirements in the areas we tested. However,
          Manteca overcharged the grant $75,138 in salary and
          fringe benefit costs and we questioned those costs. 3 In
          addition, the remaining unreimbursed grant funds of
          $74,000 should be de-obligated by COPS and put to
          better use.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 4 As
a result, some agencies may have received grant funds based on inaccurate
applications. However, we were unable to determine the number of
applications that included inaccurate data.

      During this audit, we obtained documentation from Manteca to support
the information it submitted to COPS as a part of the application for the
2009 CHRP grant. We tested the accuracy of the application statistics and
found 6 of the 41 statistics included in the application to be incorrect.
Manteca characterized the discrepancies as inadvertent errors. We
performed an analysis by applying COPS grant award criteria to the correct
audited application statistics and determined that Manteca would still have
received the CHRP grant using the correct audited application statistics.


      3
         The Inspector General Act of 1978, as amended, contains our reporting requirements
for questioned costs. However, not all findings are dollar-related. See Appendix II for a
breakdown of our dollar-related findings and for definitions of questioned costs.
      4
         U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                          -5­
Internal Control Environment

       We reviewed Manteca’s system of internal controls concerning its
expenditure and accounting of CHRP grant funds. We noted a deficiency in
that Manteca did not limit its reimbursement requests to entry-level salary
and fringe benefits as required in CHRP grant award documentation. Rather,
it charged the grant payroll amounts for experienced officer positions,
something that was not allowed under the grant. Manteca’s internal controls
did not identify and prevent this from happening. We discuss this finding in
greater detail in the Expenditure section of this report.

      We began this audit by reviewing Manteca’s accounting and financial
management system to assess the organization’s risk of non-compliance
with laws, regulations, guidelines, and the terms and conditions of the grant.
We also interviewed management staff from the organization, performed
payroll and fringe benefit testing, and reviewed financial and performance
reporting activities to further assess the risk. Manteca’s latest Single Audit
Report, issued December 16, 2011, included an unqualified opinion without
noting any material internal control weaknesses, deficiencies, or findings
that could relate to Grant 2009-RK-WX-0152.

      According to the Grant Owner’s Manual, award recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure optimal use of funds. Award recipients
must adequately safeguard funds and ensure the funds are used solely for
authorized purposes.

       While our audit did not assess Manteca’s overall system of internal
controls, we did review the internal controls of Manteca’s financial
management system specific to the administration of grant funds during the
periods under review. Manteca maintained internal controls to ensure funds
were used to employ four police officers and provide community oriented
policing in compliance with all applicable laws, regulations, guidelines, and
as authorized in the terms and conditions of the grant. While we determined
that Manteca had a separate account to safeguard all CHRP grant payroll and
fringe benefits, as mentioned above, Manteca did not limit its reimbursement
requests to entry-level salary and fringe benefits as required in CHRP grant
award documentation.




                                    -6­
Expenditures

      As of December 2012, Manteca had charged $1,405,340 to the grant,
made up entirely of salary and fringe benefit costs. 5 We selected a
judgmental sample of two non-consecutive pay periods, totaling $44,398 for
the grant-funded officers. We tested the selected payroll transactions to
verify that salaries and fringe benefit costs were accurate, adequately
supported, and reasonable. We describe the results of our payroll testing
below.

       We found that Manteca failed to ensure that it charged only entry-level
salary and associated fringe benefits for each of the four grant-funded
officers. As a result, Manteca overcharged the CHRP grant $75,138 in salary
and fringe benefit costs. We recommend that COPS ensure Manteca
establishes procedures to verify that it accurately charges only allowable and
allocable costs to grants.

       According to CHRP grant award documentation, only entry-level salary
and fringe benefit amounts were allowable costs under the grant. In its
grant application, Manteca budgeted entry-level salary for a 36-month
period, and included step increases, cost of living adjustments, holiday pay
for all holidays, and fringe benefits encompassing health care insurance,
dental insurance, vision care, Medicare, and retirement contributions.
However, when Manteca sought reimbursement from COPS, it did so based
on actual salary expenses for experienced officers (that exceeded entry-level
salary) along with unbudgeted salary expenses such as education incentives
and bilingual pay that were calculated as up to five percent of actual
salaries. It also included unallowable salary expenses for K-9 special
assignments. Likewise, Medicare and retirement contributions (fringe
benefit categories), were calculated on actual salaries that exceeded entry-
level salaries. As a result, Manteca received reimbursement for expenses
well above allowable entry-level costs. According to Manteca officials, they
had contacted the COPS office and believed COPS had approved
reimbursements exceeding entry-level amounts provided the total amount
reimbursed didn’t exceed three years of entry-level expense for four officers.
Further, Manteca would continue to fund the employment of the four grant-
funded officers for the 36-month life of the grant and one additional year.

      As mentioned above, we tested salary and fringe benefit expenditures
for two non-consecutive pay periods during the grant period. We selected
semi-monthly pay periods ending May 31, 2011, and March 15, 2012. We
traced the costs to timekeeping and general ledger payroll documentation

      5
          The $1,405,340 does not take into account $5,600 in police officer furloughs.


                                            -7­
and verified that labor charges were computed correctly, properly
authorized, and accurately recorded.

      Manteca began incurring actual personnel expenditures on
November 1, 2009. To determine the allowable expenses for the grant, we
calculated the entry-level salary and fringe benefits for the 36-month period
beginning on November 1, 2009. We based our calculations on entry-level
salary tables, allowable salary incentives, holidays that were actually worked
by CHRP grant funded officers, and actual fringe benefit entitlements for
CHRP grant funded officers. Our analysis found that Manteca should have
charged $921,991 in salary and $408,211 in fringe benefits resulting in
overcharging the grant by a total of $75,138. Manteca officials explained
why they overcharged the grant by stating that they had believed that the
COPS-approved budget constituted the grant reimbursement ceiling. We
recommend that COPS remedy questioned costs of $75,138.

     As of December 2012, the CHRP grant had unreimbursed funds of
$74,000. We recommend that COPS de-obligate the remaining
unreimbursed grant funds and put those funds to better use.

Drawdowns

      COPS requires grantees to minimize the cash maintained on hand by
requesting funds based on immediate cash disbursement needs. Even
though advances are allowed, funds must be used within 10 days of an
electronic transfer. As of December 2012, Manteca had drawn down
$1,405,340 in grant funds.

      To determine if drawdowns were completed in advance or on a
reimbursement basis, we interviewed a grant official and reviewed
documentation in support of actual expenditures. We determined that grant
funds were requested on a reimbursement basis. We also found Manteca’s
drawdown process to be adequate in minimizing the time lapse between the
drawdown and disbursement of funds. However, as previously noted, we
found drawdown requests were based on actual expenditures that exceeded
allowable entry-level salary and fringe benefit expenses.

Budget Management and Control

      Criteria established in 28 C.F.R. § 66.30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the


                                    -8­
total award must be approved in advance by the awarding agency. We
determined that Manteca complied with this requirement.

       According to the Grant Owner’s Manual, grant recipients may not
reduce their locally-funded number of sworn officer positions during the
3-year CHRP grant period as a direct result of receiving the CHRP funding to
pay for additional officers. Reductions in locally-funded sworn officer
positions that occur for reasons unrelated to the CHRP funding – such as
city-wide budget cuts – do not violate the non-supplanting requirement, but
recipients must maintain documentation demonstrating the dates and
reasons for the budget cuts to prove that they were unrelated to the receipt
of CHRP grant funding in the event of an audit, monitoring site visit, or other
form of grant compliance review.

       We reviewed Manteca’s funding strength for FYs 2009 through 2013 to
determine if Manteca reduced its locally funded police force as a result of
receiving grant funds. We found that Manteca’s local funding level for sworn
police officers was reduced by 13 from 58 in FY 2009 to 45 budgeted sworn
officers in FY 2010. According to Manteca officials and supporting
documentation, the reduction in local funding strength was a result of
economic distress, which had an adverse effect on Manteca’s overall budget
and staffing levels, which included the city’s various agencies, including its
police department. Because of the economic distress on the city, and other
agencies being asked to reduce staffing, we concluded that this reduction did
not constitute a violation of the non-supplanting requirement. After
FY 2010, Manteca maintained a steady staffing level of 45 budgeted officers.
We concluded that based on this information, Manteca did not violate the
COPS’ non-supplanting requirement.

Reporting

      According to the COPS’ CHRP Grant Owner’s Manual, award recipients
are required to submit both quarterly Federal Financial Reports (FFR) and
quarterly Progress Reports. Moreover, since this was a Recovery Act grant,
Manteca was also required to submit quarterly Recovery Act reports. We
reviewed the FFRs, Progress Reports, and quarterly Recovery Act reports
submitted by Manteca to determine whether each report was accurate and
submitted in a timely manner.

Federal Financial Reports

      COPS monitors the financial aspect of its CHRP grants through Federal
Financial Reports (FFR). According to the Grant Owner’s Manual, grantees
are required to submit FFRs within 45 days of the end of each quarter.


                                     -9­
Grantees are required to submit FFRs even for periods when there have
been no program outlays. Funds or future awards may be withheld if FFRs
are not submitted or are late.

       A Manteca official told us that FFRs were compiled using quarterly
reports from their accounting system. As of February 2013, Manteca had
submitted 13 of the 14 FFRs required for this grant. Manteca officials failed
to submit an FFR for the first quarter of the grant (July 1, 2009, through
September 30, 2009) during which there was no grant activity. Manteca
officials stated that they did not know FFRs were required for periods where
there was no program outlay. The last FFR that Manteca submitted was for
the quarter ending December 31, 2012.

       We tested each FFR for accuracy and timeliness. To test if the FFRs
were accurate, we compared the expenditures reported on the FFRs to grant
accounting detail and concluded that each report that was submitted was
generally accurate. In addition, we tested the FFRs for timely submission
using the criteria noted above and found that Manteca generally submitted
all 13 FFRs to COPS in a timely manner. Because each of the FFRs we
tested was generally accurate and submitted in a timely manner, we
concluded that Manteca met COPS’s financial reporting standards.

Progress Reports

      Progress Reports provide information to COPS regarding a grantee’s
performance in accomplishing grant objectives as set forth in the approved
award application. According to the Grant Owner’s Manual, these reports
must be submitted quarterly, within 30 days after the end of the reporting
periods for the life of the award.

      As of February 2013, Manteca was required to submit 14 quarterly
Progress Reports. However, Manteca submitted only 11; Manteca failed to
submit the first 3 required Progress Reports. Manteca officials did not have
an explanation for why the first three required reports were not submitted.
We do not take exception of Manteca’s failure to submit the first three
Progress Reports because there were no subsequent occurrences.

      We selected the last eight Progress Reports submitted to test for
timeliness and the last four to test for accuracy. We tested the Progress
Reports for timeliness using the criteria noted above and found all eight
Progress Reports were generally submitted on time. Additionally, we tested
the last four Progress Reports to determine if the reports were accurate and
complete, including a description of accomplishments related



                                    - 10 ­
to community policing. We found the reports we reviewed to be accurate
and complete, including all required information.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that collects all reports. Recipients must enter their data no later than
10 days after the close of each quarter.

       As of November 2012, Manteca was required to submit 13 Recovery
Act Reports. However, Manteca submitted only 10; Manteca failed to submit
the first 3 required Recovery Act Reports. Manteca officials did not have an
explanation for why the first three required reports were not submitted. We
do not take exception of Manteca’s failure to submit the first three Recovery
Act Reports because there were no subsequent occurrences.

       We selected the last eight Recovery Act Reports to test for timeliness
using the criteria noted above and found that all eight reports were generally
submitted in a timely manner. We also tested the last four Recovery Act
Reports submitted for accuracy to determine if Manteca included the
required information, including accomplishments related to community
policing, and accurately reported the data. We found the four reports
contained the required information and were accurate.

Additional Award Requirements

       In the accompanying award documentation, COPS provided Manteca
with specific terms and conditions for the grant that was awarded. We refer
to these terms and conditions as special conditions and they may include
special requirements unique to the award. Manteca’s CHRP grant contained
a special condition requiring that funding should only be used for payment of
approved full-time entry-level sworn officer salaries and fringe benefits. As
we discussed in the Expenditures section of this report, we found that
Manteca failed to ensure that it only charged entry-level salary and
associated fringe benefits as stipulated in in the award’s special conditions
but instead charged salary and fringe benefits associated with experienced
officers. This led to Manteca overcharging the grant $75,138 in salary and
fringe benefit costs.




                                     - 11 ­
Program Performance and Accomplishments

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee's performance in meeting CHRP grant objectives.
According to COPS, there were two objectives to the CHRP grant: (1) to
increase the capacity of law enforcement agencies to implement community
policing strategies that strengthen partnerships for safer communities and
enhance law enforcement's capacity to prevent, solve, and control crime
through funding additional officers, and (2) to create and preserve law
enforcement officer jobs.

        Even though COPS did not require Manteca to track statistics to
support its performance, it required Manteca to be able to demonstrate that
it is initiating or enhancing community policing in accordance with its
community policing plan. Manteca’s CHRP grant application was written with
the expectation of hiring four new police officers. The application delineated
specific community policing activities that were to be performed by the
newly hired officers. Subsequent to the submission of the application,
Manteca’s financial condition deteriorated and the grant was approved as a
rehire (essentially an avoid layoff) grant. Three of the four retained officers
were full-time patrol officers responding to calls while attempting to perform
community policing when possible. The fourth officer retained was a school
resource officer largely involved in community policing.

       According to Manteca officials, the four CHRP funded officers were
assigned to the patrol division. We interviewed the four CHRP grant funded
officers. Although working in the patrol division at the time of our interview,
one school resource officer was usually assigned to gang prevention and
worked with school age kids to keep them out of gangs and assist gang
members in their departure from gangs. He was assigned to the elementary
schools within the community and interacted with the students on a daily
basis. The other three officers were assigned to patrol activities where they
applied community policing and problem solving skills on a daily basis to
suppress crime, apprehend offenders, educate the public, and strengthen
community partnerships. During our interviews with the officers, they
consistently stated they participated in many community partnerships. They
worked with a partnership of community groups consisting of non-profits,
the Manteca Unified School District, and the Manteca Police Department.
The non-profits participating included Point Break, South County Crisis
Center, and the Manteca Boys and Girls Club. The school resource officer
provided gang prevention training and education to parents, workers, and
students and participated in a mentoring program for troubled 7th to 9th
graders in the Manteca Unified School District. The officers also gave gang
presentations at community health fairs and to school employees.


                                    - 12 ­
We concluded that Manteca was meeting the community policing objective of
the grant.

Retention Plan

       Manteca officials stated that they intend to retain the four CHRP grant-
funded officers for at least 1 year following the expiration of the 3-year
grant. Manteca included in its FY 2013 local budget funding of the four
officers. Following the expiration of the 36-month CHRP grant funding
period on October 31, 2012, Manteca retained the four previously grant-
funded officers.

Post Grant End Date Activity

     We determined that Manteca timely filed their final FFR, Progress
Report, and Recovery Act Report and found no reportable exceptions.

Conclusion

      We found that Manteca overcharged the grant $75,138 by consistently
requesting and receiving reimbursement for experienced officers that
exceeded the allowable amount for an entry-level officer’s salary and fringe
benefits. To address this situation, we provide three recommendations. In
addition, we found that Manteca drew down grant funds on a reimbursement
basis and generally submitted accurate FFRs, Progress Reports, and
Recovery Act Reports in a timely manner. However, we found instances
where Manteca failed to submit its first required FFR, its first three required
Progress Reports, and its first three required Recovery Act Reports. Finally,
we concluded that Manteca was meeting the community policing objective of
the grant and planned to retain the four officers for at least one year after
the expiration of the grant funding.

Recommendations

      We recommend that COPS:

      1.	 Remedy questioned costs of $75,138.

      2.	 Ensure Manteca establishes procedures to verify that it accurately
          charges only allowable and allocable costs to grants.

      3.	 De-obligate the remaining unreimbursed grant funds of $74,000.




                                    - 13 ­
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of our audit was to determine whether reimbursements
claimed for costs under grant 2009-RK-WX-0152 were allowable,
reasonable, and in accordance with applicable laws, regulations, guidelines,
and the terms and conditions of the grant. We also assessed grantee
program performance in meeting grant objectives and overall
accomplishments. We reviewed activities in the following areas:
(1) application statistics, (2) internal control environment, (3) expenditures,
(4) drawdowns, (5) budget management and control, (6) reporting,
(7) additional award requirements, (8) program performance and
accomplishments, (9) retention plan, and (10) post grant end date activity.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of COPS Hiring Recovery Program
grant 2009-RK-WX-0152 on July 1, 2009, through the start of our audit
fieldwork on May 7, 2012, which preceded the grant end date of
December 31, 2012. Further, we tested compliance with what we
considered to be the most important conditions of the grant. Unless
otherwise stated in our report, the criteria we audited against are contained
in the 2009 COPS Hiring Recovery Program Grant Owner’s Manual and grant
award documents.

       We did not test internal controls for Manteca taken as a whole or
specifically for the grant program administered by Manteca. An independent
Certified Public Accountant conducted an audit of Manteca's financial
statements. The results of this audit were reported in the Single Audit
Report that accompanied the Independent Auditors’ Report for the year
ending June 30, 2011. The Single Audit Report was prepared under the
provisions of OMB Circular A-133. We reviewed the independent auditor’s
assessment to identify control weaknesses and significant noncompliance
issues related to Manteca or the federal programs it was administering, and
we assessed the risks that those findings have on our audit.


                                     - 14 ­
       In conducting our audit, we performed sample-based testing in four
areas: payroll and fringe benefit charges, Progress Reports, Financial
Reports, and Recovery Act Reports. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the grant, such as unique payroll and fringe benefit adjustments throughout
the year. This non-statistical sample design did not allow projection of the
test results to the universe from which the samples were selected.

       In addition, we reviewed the timeliness and accuracy of Federal
Financial Reports, Progress Reports, and Recovery Act Reports, and
evaluated performance of grant objectives. However, we did not test the
reliability of Manteca’s financial management system as a whole. We tested
the reliability of the information in the accounting system during the payroll
verification testing. We traced a sample of the information in the accounting
system to supporting documentation and found the information to be
reliable.




                                    - 15 ­
                                                                      APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS


DESCRIPTION                                                              AMOUNT PAGE
                          6
QUESTIONED COSTS

 Unallowable Reimbursements in Excess                                   $   75,138          7
   of Entry-Level Limitations


Net Questioned Costs                                                    $ 75,138

Funds to Better Use 7
 Unreimbursed grant funds                                               $ 74,000            8

TOTAL NET DOLLAR-RELATED FINDINGS                                       $149,138




      6
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
      7
       Funds to Better Use are future funds that could be used more efficiently if
management took actions to implement and complete audit recommendations.

                                         - 16 ­
                                                                             APPENDIX III

THE CITY OF MANTECA POLICE DEPARTMENT
 RESPONSE TO THE DRAFT AUDIT REPORT




                     CITY OF MANTECA
                                                                     POLICE DEPARTMENT




  July 11, 2013


  David J. Gaschke
  Regional Audit Manager
  US. Department of Justice
  Office of the Inspector General
  San Francisco Regional Audit Office
  1200 Bayhili Drive, Suite 201
  San Bruno, California 94066

  Dear David J. Gaschke,

         Thank you for the opportunity to r eview and comment on the aud it of our
  2009 COPS hiring grant. The auditors were very thorough in their audit of t he
  grant, spending a great deal of t ime in the city and even more through phone calls
  and emails.

         The audit basically states the City of Manteca was in compliance with all
  aspects of the grant, except for $75,138 that was charged. The $75,138 was the
  cost of the officers ilbove whilt the grilnt illiowed. The City of Manteca had
  contacted the COPS office to confirm jf the $75,138 were allowable charges. The
  City of Manteca was t old by the COPS office the charges were allowable, as these
  were the actual costs incurred by the city. The grant rules allowed only entry level
  salaries for three years, but city rules and contracts state officers are entitled to
  step increases each year. It should also be noted the report also says that $74,000
  in grant funds were not spent by the city as allocated in the grant.




                                        ----
    1001 W. CENTER ST. • MANTECA. CA 95337 • (209) 456·8108 • FAX (209) 923·8938
                                  www.ci.manteca.C3.us




                                        - 17 ­
                    CITY OF MANTECA
                                                                     POLICE DEPARTMENT




      When the City of Manteca initia lly appl ied for t he 2009 COPS hiri ng grant
 we anticipated hiring four new officers. The city fell on difficult economic t imes
 between the time the grant was applied for and the time it was awarded. The city
 requested the gra nt altered to a re-hire grant and thankfully our request was
 approved. The city is still in difficu lt economic times and still moving towards a
 balanced budget.

      Due to the fact that the City of Manteca only exceeded the tota l monies
allowed by the grant by $1,138, we respectfu lly ask that the leftover money of
$74,000 be applied to the $75,138 and the city only be required to reimburse
COPS $1,138.

       Thank you for the opportunity to respo nd to the audit and for t he 2009
CHRP grant.




Sincerely   fL
~~: ~;~acion
Chief of Police




                                      - --
   1001 W. CENTER 5T. • MANTECA, CA 95337 • (209) 456-8108 • FAX (209) 923-8938
                                  www.ci.manteca.ca.us
                                          ...


                                        - 18 ­

                                                                                                  APPENDIX IV

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT





                      u.s.   DEI'''RTMliN T   0.· JUSTIC E
                      O FFI CE OF COMMUN I TY O R II\NTI'.IJ POLICING           Sl<RVICI'.,'
                                                                                          '-_ _
                                                                                                 I'aOPS
                                                                                              - =....,
                                                                                                  =--...___"_--=...'
                                                                                                    '
                      Gr~J" Opc,,,,,ion. Di«uorAtc ! Audit Li~i",," Divi,iull
                      14S N .~n~~t. N.F. .• Wa.hillemn. DC 2OS"\O



                                                   M .EMORAN Il UM


     Via Email and Us. At(,i/
     To:           David J . Uasch ke
                   Regiunal Audit M ana gel
                   Officc of the Inspector GenJ:'ral
                   San Francisco Regional Audit Office

     From:
                      ~;~:o:i>:~~~l~ PO'
     Date:            July 15,201]

     Subje:ct:        Rcsponsc to Dmft Audit Rcport and rcquest for resolution of Audit
                      Recom mendatIOns I and 1. as well as closure of Kccommendal ion 3 or lhe D raft
                      Aud it Report date\! JUlIe 17, 2013 for the Manteca Po lice D.:partlllclII, Manteca,
                      CA, ORI ff CA03903.

             This IIl':I1lunInuullI s.:; rve:s as COPS· requcst for rcsol uti on of Rc<:ommcndat ions I and 2
     as well closure o f Recomme ndation 3 of the Draft Aud it Report dated June 17, 20 13 for the
     MlIntcea Policc Departmenl. regarding COl'S C HRp Grant # 2009-RK-WX-OI52: based on the
     beluw rcfef(:m;.:d ac tions take:n by COPS and the: grante:e.


     Rccu"'ill c ndation 1- Remedy qucstioncd costs of $75.138.

     Statu s: Draft

     Disc ussion : r()I>S agrees thlll grantees should not over charge for grant related expenses and
     should not exceed thc allowablc amuun t fur cntry-Ievel UmI:Cf'~ ~lufY anu fduge 1.x:llefit~.

     Action Taken: The COl'S Oll1ec has eommumclIted with the grantee and w ill work with th e
     Manteca Pol ice dcpartmclltlu de vd o p a cO rI'c<:tive ac tion plan.

     Re(lucst: Based on the d iscussion and action laken. COPS rcQues\s resol ut ion or
     Recomm endatiun I.


     Rccomme ndatio" 2- ": " surc Manteca cs tabli ~ hcs I'l"occduI·c~ to vc.-i(y tbnt it act unlh·
     chllrgc.~ only alJow a hle an d allocable costs to grants.




                                                     - 19 ­
David J. Gaschke, Regional Audit Manager, OrG
Jul y 15,20 13
Page 2


Status: Draji

Discussion: COPS agrees that grantees should procedures to verify that it accurately charges
only allowable and allocable costs to grants.

Action Taken : The COPS Office has been in contact with the grantee and will work with the
Manteca Police Department to craft procedures to verify that it accurately charges only allowable
and allocable costs to grants.

Request: Based on the di scussion and action taken , COPS requests reso lution of
Recommendation 2.

Recommendation 3- Dc-obligate the remaining unreimbursed grant funds of $74,000.

Status: Drqji

Discussion: COPS agrees that unreimbursed grant fund s should be de-obli gated and put to
better use.

Action Taken: COPS is de-obli gating the remaining $74,000 in unspent grant fund s (copy
attached).

Request: Based on the di scussion and action taken, COPS requests closure of Recommendation
3.

       Based on the above di scussion and action taken, COPS asks that the OIG consider the
Drafi Audit Report Resolved and requests written acknowledgcment of this determination from
~ ur~ =                                                                               .

       Thank you very much. If yo u have any questions regarding this memorandum , please do
not hesitate to contact me at (202) 514-59 14 or via email at Karl. Bickcl@usdoj .gov.


Attachments:
       COPS req uest for de-obligation of grant fund s

cc:     Audit Liai son Office (ALO@usdoj. gov)

        Audit File

        Grant files:   2009-RK-WX-015 2


 OR 1# CA03903




                                        - 20 ­
                   us. DhYA RT"'~NT ()f J"S'rlc~
                   Orn er or CO .... UtlLTl       OI"~NTll> Po~":,,,.,   Su,"lcn              COPS
                   G•• " , Op«>rion, D;,."o..,,1 Aooi, I..."", J);mion
                   14S N    s.,..,..
                                 N.F_ W... h'''t«lB,DC lOHO




MEMORANDUM TO :                         COl'S Staff Accountant

nIR(1)(lH:
                                                                 ,/; -
                                        Marcia SamudS-CHDlpbCJI -~   ~
                                        A!iSistan\ Directur          (!!/
                                        Monitoring Di\,;,;on

FROM '                                  Karl   W. llicl,)1 lV
                                        Senior Poli.e ~1::1

DAlE                                    Julyll.20lJ

SUBJ ECT                                RWUfj! fo r !),.,b lig !!!jul ,, ( COPS (;r~ul   ~'u ud .
                                        ORl: C\OJ9tlJ
                                        Ag.n~y: Mnllt.c~. CA Polk e Dep3nm.'n l
                                        C IIKl' Granl : "lU09- RK.WX-OI S2


       TI,i . """"'","3ndum ;.10 re<Jue5t lMllhe COPS FinanC" Office OOobli,""l~ $74.000 fur the
above referenced e llRP ;:non' aw.ud wider Draft Awillkpon issued June [7, ]013

         Pk. ~     "Mine! me al (l02) 514-5\114. if yO<! bave any qu<:slIOns on thiS          maner. I h an~ you
for)'tl1l1   a:;~i."",ce.




~..      Granl fHc(Cupje~              1)
         COP S CIlIU' 0","" 'XlO')·IlK·WX-Ol '2




                                                                                                                   APPENDIX IV




                                               GRANTEE RESPONSE


                                                                                                                   APPENDIX IV



                 DEPARTMENT OF JUSTICE RESPONSE


                                                                     - 21 ­

                                                              APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Manteca and to COPS.
Manteca’s and COPS’ responses are incorporated in Appendices III and IV of
this final report, respectively. The following provides the OIG analysis of the
responses and a summary of actions necessary to close the report.

Recommendation Number:

1.	 Resolved. COPS concurred with our recommendation to remedy
    $75,138 in questioned costs. The questioned costs resulted from
    Manteca overcharging the grant $75,138 by consistently requesting and
    receiving reimbursement for experienced officers that exceeded the
    allowable amount for an entry-level officer’s salary and fringe benefits.
    The COPS Office has communicated with the grantee and will work with
    Manteca to develop a corrective action plan.

    While Manteca did not disagree with our recommendation, it stated in its
    response that it was told by COPS that the charges were allowable, as
    the charges were the actual costs incurred by the city. Further,
    Manteca stated grant rules allowed only entry level salaries for 3 years,
    but city rules and contracts state officers are entitled to step increases
    each year. We agree that the charges were for actual costs incurred by
    the city and that when entry-level salary is charged to the grant, it
    includes step increases. However, Manteca used the grant to fund
    experienced officers’ salaries and fringe benefits above an entry-level
    officer’s salary and fringe benefits as allowed by the grant terms.
    Further, our calculation of allowable costs included step increases an
    entry-level officer would have received.

    This recommendation can be closed when we receive evidence that the
    $75,138 in questioned costs has been remedied and a corrective action
    plan has been developed and implemented.

2.	 Resolved. COPS concurred with our recommendation that COPS
    ensures that Manteca establish procedures to verify that it accurately
    charges only allowable and allocable costs to grants. COPS has been in
    contact with the grantee and will work with Manteca to craft procedures
    to verify that it accurately charges only allowable and allocable costs to
    grants.


                                    - 22 ­
    This recommendation can be closed when we receive evidence that
    Manteca has established procedures for verifying that it accurately
    charges only allowable and allocable costs to grants.

3.	 Resolved. COPS concurred with our recommendation to de-obligate
    the remaining unreimbursed grant funds of $74,000. COPS stated that
    the remaining $74,000 in unspent grant funds has been de-obligated
    and included a copy of a memorandum to the COPS Staff Accountant
    requesting the same.

    While Manteca did not specifically disagree with our recommendation, it
    stated in its response: “Due to the fact that the City of Manteca only
    exceeded the total monies allowed by the grant by $1,138, we
    respectfully ask that the leftover money of $74,000 be applied to the
    $75,138 and the city only be required to reimburse COPS $1,138.”
    Manteca appears to be combining two separate and unrelated issues.
    Manteca did not incur allowable expenses during the grant’s 3-year time
    period in support of the $74,000 in unspent grant funds. Therefore, we
    believe this amount should be de-obligated. In addition, Manteca has
    already been reimbursed $75,138 for costs that are not allowable in
    accordance with the grant terms. These are two separate issues and
    the amounts should not be netted against each other.

    This recommendation can be closed when we receive evidence that the
    $74,000 in unspent grant funds was de-obligated.




                                   - 23 ­
